Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




 FOSTERING EQUITY IN PATIENT
 ACCESS TO TRANSPLANTATION:

Differences in Waiting Times for Kidneys




                   JUNE GIBBS BROWN
                    Inspector General

                        MAY 1999
                      OEI-01-99-00211
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston Office prepared this report under the direction of Mark R. Yessian, Ph.D., Regional
Inspector General. Principal OEI staff included:

REGION                                                                         HEADQUARTERS

Russell W. Hereford, Ph.D., Project Leader                           Alan Levine, Program Specialist
Maria E. Maddaloni, M.A., Program Analyst



         To obtain copies of this report, please call the Boston Regional Office at 617-565-1050
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                            EXECUTIVE SUMMARY

For the past decade, the Office of Inspector General has maintained an active interest in this
nation’s organ allocation system. Our work has been guided by three underlying tenets that the
Congress spelled out in the National Organ Transplant Act:
C      An equitable system, with each person on a transplant waiting list having an equal
       opportunity to receive a transplant subject to established medical criteria;
C      A national system adhering to uniform policies and standards; and
C      A cooperative system based on the best interests of patients waiting for transplantation.
In 1991, we found that the access of patients to donated kidneys fell short of expectations in some
important respects. For example, we found wide variation in waiting times among racial groups,
transplant centers and geographic regions. We updated that report in 1998; we found that both
racial and geographic disparities in waiting times still exist and, in some cases, seem to be
growing. Today, more than 41,000 people are waiting for a kidney transplant, triple the number
who were waiting to be transplanted in 1988.

This report is one in a series designed to shed light on the reasons for and implications of
inequitable access to organ transplantation. This inquiry analyzes data on median waiting times
for kidney transplants for two 3-year periods: January 1993 through December 1995 for median
waiting times, and January 1994 through December 1996 for other data. These data are the most
recent available from the Organ Procurement and Transplantation Network (OPTN).

Variation in waiting times for a kidney transplant. Our analysis shows considerable variation
in median waiting time for kidney transplantation among the OPTN regions. For patients with
Type O blood, the most common blood type, median waiting time ranged from 420 days to
1,538 days.

Likelihood of receiving a kidney transplant. Our review shows that patients in regions with a
longer waiting time are less likely to receive a transplant. The percentage of patients with Type
O blood who received a transplant ranged from 23 percent in the region with the longest median
waiting time to 43 percent in the region with the shortest median waiting time.

Likelihood of death while awaiting a kidney transplant. Our review finds little variation in
regional death rates, and a limited relationship with length of time on the waiting list. The use of
dialysis may provide an explanation for this consistency across regions.

Our work on organ allocation and donation is continuing.
                         WAITING TIMES FOR 

                      KIDNEY TRANSPLANTATION

Background

In 1991, the Office of Inspector General documented the expectations that Congress and
professional leaders had of organ allocation systems and then contrasted those expectations with
actual practices.1 We found that the access of patients to donated kidneys fell short of
expectations in some important respects; for example, we found wide variation in waiting times
among transplant centers and among different geographic regions of the country, as well as
disparities between blacks and whites in waiting times for a kidney transplant. We also found that
organ distribution remained heavily controlled by individual transplant centers. We found that
among some transplant centers and professionals, a sense of local ownership toward organs
impeded the development of a national system for distributing organs.

Our work in this area has led us to call for an organ allocation system that focuses on:

C      equity among patients, not among transplant centers, and 

C      common medical criteria, not on the circumstances of a patient’s residence or transplant

       center affiliation.

We reiterated these recommendations during testimony at the April 8, 1998, hearing of the House
Subcommittee on Human Resources of the Committee on Government Reform and Oversight.
We also updated differences based on race and geography for testimony before that subcommittee
in June 1998. As of April 1999, more than 41,000 people are waiting for a kidney transplant,
triple the number who were waiting to be transplanted in 1988.

This Inquiry
The purpose of this inquiry is to shed light on the implications of regional variation in median
waiting time for kidney transplantation. Our analysis focuses at the Organ Procurement and
Transplantation Network (OPTN) regional level.

We use aggregate data from the OPTN, published in January 1999.2 These data cover two three-
year periods: January 1993 through December 1995 for median waiting times, and January 1994
through December 1996 for data on rates of death and likelihood of transplantation.3 The OPTN
data are not risk-adjusted to account for the influence of a number of additional factors that may
affect waiting time and access to transplantation. These factors could include individual patient
medical status and characteristics; transplant center criteria for placing a patient on the waiting
list; individual physician practices in referring and approving patients for transplant; the number,
size, and maturity of transplant programs operating in a region; and the number of patients who
are listed at more than one transplant center.




                                                - 1 -

National Overview of Waiting List for Kidney Transplants

During the 3-year period January 1994 through December 1996, almost 74,000 people were
registered on the waiting lists for a kidney transplant. About one-third of these people received a
transplant, but 6 percent of the total died while on the transplant list.4

Table 1 shows the number of patients listed for kidney transplant in the 11 OPTN regions for all
blood types. The regions comprise different geographical areas and population bases. Although
regions serve a central role in the current organ allocation system, the number of patients listed,
the number of transplant programs, and the number of organ procurement organizations vary
among the regions.5 Moreover, patients may be listed in a region in which they do not reside.

                                              Table 1
              Patients Listed for Kidney Transplant (all Blood Types) by OPTN Region
                                    January 1994 - December 1996
     OPTN                                                                                    Patients Listed
                                           States in Region
     Region                                                                                  for Transplant
        1        Connecticut, Massachusetts, Maine, New Hampshire, Rhode                           3,602
                 Island, Vermont
        2        Delaware, Maryland, Pennsylvania, New Jersey,                                    11,086
                 West Virginia, District of Columbia, Northern Virginia
        3        Alabama, Arkansas, Florida, Georgia, Louisiana, Mississippi,                      8,395
                 Puerto Rico
        4        Texas, Oklahoma                                                                   4,890
        5        Arizona, California, Hawaii, Nevada, New Mexico, Utah                            13,236
        6        Alaska, Idaho, Montana, Oregon, Washington                                        1,811
        7        Illinois, Minnesota, North Dakota, South Dakota, Wisconsin                        8,327
        8        Colorado, Iowa, Kansas, Missouri, Nebraska, Wyoming                               3,609
        9        New York                                                                          6,090
        10       Indiana, Ohio, Michigan                                                           6,598
        11       Kentucky, North Carolina, South Carolina, Tennessee, Virginia                     6,284
                 (outside of Northern Virginia)
     Source: 1997 Report of the OPTN: Waiting List Activity and Donor Procurement, Kidney Volume, January 1999.


Waiting Times, Transplants Performed, and Death Rates

Here we present and describe data on median waiting time, patients who received a kidney
transplant, and patients who died while awaiting a transplant.6 We focus our discussion on
patients with Type O and Type A blood; patients with these two blood types comprise 81 percent
of those waiting for a kidney transplant.7 Where median waiting time is indicated, we refer to the
median waiting time for patients listed for a primary kidney transplant.8


                                                        - 2 -

         Patients with Type O Blood — Waiting Time for Transplant

Table 2 presents data for individuals with Type O blood, who comprise 49 percent of the total
waiting list. Figures 1, 2, and 3 (pages 6-8) present map-based displays of these data. The data
show striking differences among the OPTN regions with respect to the median time that patients
spend on the waiting list. Although the national median waiting time is 915 days, it varies from as
low as 420 days in Region 6, comprising the Northwestern States, to 1,538 days — more than 4
years — in Region 9, New York State.

                                             Table 2
            Median Waiting Time for Primary Transplant (January 1993 - December 1995)
                Transplants Performed and Deaths (January 1994 - December 1996)
                                Kidney Patients with Type O Blood
     OPTN              Patients               Median Waiting               Percent
     Region         Registered for             Time (days)               Transplanted           Percent who Died
                     Transplant
    1                    1,759                      1,273                      26 %                     8 %
    2                    5,286                        988                      29                       7
    3                    4,257                        516                      37                       6
    4                    2,602                        514                      41                       4
    5                    6,734                      1,134                      25                       7
    6                       891                       420                      42                       5
    7                    3,963                        974                      28                       7
    8                    1,727                        486                      43                       6
    9                    2,921                      1,538                     23                        7
    10                   3,074                        730                     36                        7
    11                   3,185                        927                     34                        7
    National
                         36,399                       915                      31 %                    7 %
    Total
    Source: 1997 Report of the OPTN: Waiting List Activity and Donor Procurement, Kidney Volume, January 1999.


         Percent Receiving a Transplant
Regions with the shortest median waiting times had the highest percentage of patients
transplanted. For example, in Region 6, where median waiting time was 420 days, 42 percent of
those on the list received a transplant, and in Region 8, where median waiting time was 486 days,
43 percent received a transplant. In contrast, only 23 percent of patients were transplanted in
Region 9, which had the longest median waiting time of 1,538 days.
         Deaths while Waiting for Transplant
As Table 2 shows, death rates are generally uniform from region to region. It is not surprising
that death rates are relatively consistent across regions. Without transplantation, patients with

                                                        - 3 -

renal failure are sustained by dialysis which typically is provided on a continuing basis.

         Patients with Type A Blood — Waiting Time for Transplant
Table 3 presents data for individuals with Type A blood, who comprise 32 percent of the total
waiting list. Figures 4, 5, and 6 (pages 9-11) present map-based displays of these data. For all
regions, waiting times for patients with Type A blood are noticeably shorter than for those with
Type O blood. Waiting times range from a low of 202 days in Region 4 (Texas and Oklahoma) to
a high of 1,159 days in Region 9 (New York State).

                                                      Table 3

          Median Waiting Time for Primary Transplant (January 1993 - December 1995)
               Transplants Performed and Deaths (January 1994 - December 1996)
                               Kidney Patients with Type A Blood
    OPTN         Patients Registered        Median Waiting         Percent Transplanted            Percent
    Region       for Transplant             Time (days)                                            who Died
    1                     1,229                     797                        32 %                      6 %
    2                     3,552                     591                       39                         7
    3                     2,476                     235                       49                         5
    4                     1,511                     202                       57                         4
    5                     4,102                     595                       36                         6
    6                       615                     211                       57                         4
    7                     2,841                     588                       35                         7
    8                     1,367                     358                       48                         6
    9                     1,933                   1,159                       28                         6
    10                    2,332                     584                       40                         7
    11                    1,928                     367                       48                         6
    National
                         23,886                     489                       41 %                       6 %
    Totals
    Source: 1997 Report of the OPTN: Waiting List Activity and Donor Procurement, Kidney Volume, January 1999



Percent Receiving a Transplant
Regions 4 and 6, both with the shortest median waiting times of just over 200 days, also had the
highest percentages of patients receiving transplants. In contrast, Region 9 had the longest
median waiting time (1,159 days) and the lowest percentage of patients receiving transplants,
28 percent.

         Deaths while Waiting for Transplant

As with patients with Type O blood awaiting kidney transplants, death rates are generally uniform

                                                        - 4 -

from region to region.

Conclusions

Our review found a relationship between the median waiting time for kidney transplants and the
percentage of patients who actually receive a transplant. Not surprisingly, the longer the waiting
time within an OPTN region, the lower the likelihood of a patient’s actually receiving a transplant.


However, death rates while awaiting a kidney transplant generally are consistent across regions,
despite the variations in median waiting time. The availability and use of kidney dialysis may
provide an explanation for this consistency. In the absence of transplantation, patients with renal
failure must be sustained by dialysis on a continuing basis.7

Our work on organ allocation and donation is continuing.




                                                - 5 -

                                          Endnotes

1. HHS Office of Inspector General (OIG), The Distribution of Organs for Transplantation:
Expectations and Practices. (OEI-01-89-00550), March 1991.

2. 1997 Report of the Organ Procurement and Transplantation Network: Waiting List Activity
and Donor Procurement, Kidney Volume, January 1999. These data, although somewhat dated,
are the latest publicly available from the OPTN. They are the type of data that are accessible to
the members of the public who want to assess waiting times and likelihood of a transplant among
various OPTN regions and, indeed, at transplant centers within those regions.

3. “Due to the typically longer waiting times for patients awaiting kidney transplantation, the
median waiting time and the percent of patients transplanted analyses were based on patient
registrations during 1993-95. If a more recent time period were used, medians would not be
calculable for many categories.” 1997 Report of the Organ Procurement and Transplantation
Network: Waiting List Activity and Donor Procurement, Kidney Volume, January 1999, p. 6.

4. 73,928 registrants were listed on the waiting lists for kidney transplants. 21,851 of these
(30 percent) were listed at the start of this period, and 52,077 were added during this period.

Of the 73,928 registrants, 34 percent (25,320) received a transplant. Six percent (4,758) died
while on the waiting list, and 17 percent (12,594) were removed from the list for other reasons.
These include refusing a transplant, being transferred to another center, being medically
unsuitable, either improving so a transplant was not needed or deteriorating so that the patient
was too sick to transplant, being transplanted at another center, receiving a living donor
transplant, or some other reason.

5. The following table provides data on number of organ procurement organizations (OPOs) and
kidney transplant centers by OPTN region:

                  OPTN         Number of        Number of Kidney Transplant
                  Region      OPOs (1996)            Programs (1996)
                     1             2                        16
                     2             5                        33
                     3            12                        26
                     4             4                        26
                     5            10                        38
                     6             2                         7
                     7             4                        22
                     8             5                        25
                     9             5                        15
                    10             6                        24
                    11            10                        25


                                               - 12 -

6. The median waiting time is the number of days by which 50 percent of the cohort received a
transplant. The cohort in this analysis includes all patients who were added to the waiting list
between January 1, 1993 and December 31, 1995.

As used in the OPTN report, median waiting time is based on the number of days between the
patient being listed and one of three outcomes: (a) receipt of a transplant; (b) removal from the
transplant list, including death of the patient; or (c) September 17, 1997, the cutoff date for the
OPTN data analysis.

In addition, the OPTN data include patients who are listed at more than one center; according to
OPTN, this figure is about 5 percent of all patients. For this reason, OPTN uses the term
registrants, rather than patients. A registrant is counted as having received a transplant only at the
center (or within the region) at which the transplant was performed.

7. We use blood type in our analysis because the OPTN report aggregates data for all statistics
presented in this report by blood type only. Patients with Type B blood comprise 15 percent of
the waiting list, and those with Type AB blood comprise 3 percent of the waiting list. For these
blood types, the distribution of waiting times, percent of patients receiving a transplant, and
deaths while awaiting a transplant is similar to that for patients with Type O and Type A blood.

8. Between January 1, 1993, and December 31, 1995, 49,909 registrants were added to kidney
transplant lists; 42,190 (85 percent) were added for a primary transplant and 7,719 (15 percent)
were added for a repeat transplant.




                                                - 13 -

